           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



       ADMINISTRATIVE COSTS
          CLAIMED BY THE
        MICHIGAN DISABILITY
      DETERMINATION SERVICES

    September 2009   A-05-08-18017




 AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                             SOCIAL SECURITY
MEMORANDUM

Date:      September 30, 2009                                                                     Refer To:

To:        James F. Martin
           Regional Commissioner
            Chicago

From:      Inspector General

Subject:   Administrative Costs Claimed by the Michigan Disability Determination Services
           (A-05-08-18017)


           OBJECTIVE
           For our audit of Fiscal Years (FY) 2006 and 2007 administrative costs claimed by the
           Michigan Disability Determination Services (MI-DDS), our objectives were to
                    evaluate MI-DDS’ internal controls over the accounting and reporting of
                     administrative costs;
                    determine whether costs claimed by MI-DDS were allowable and properly
                     allocated, and funds were properly drawn; and
                    assess limited areas of the general security controls environment.

           BACKGROUND
           Disability determinations under the Social Security Administration’s (SSA) Disability
           Insurance and Supplemental Security Income programs are performed by disability
           determination services (DDS) in each State or other responsible jurisdiction, according
           to Federal regulations.1 Each DDS is responsible for determining claimants’ disabilities
           and ensuring that adequate evidence is available to support its determinations. To
           make proper disability determinations, each DDS is authorized to purchase consultative
           medical examinations and medical evidence of record from the claimants’ physicians or
           other treating sources. SSA pays the DDS for 100 percent of allowable expenditures
           using a State Agency Report of Obligations for SSA Disability Programs
           (Form SSA-4513). 2


           1
               20 Code of Federal Regulations (C.F.R.) §§ 404.1601 et seq. and 416.1001 et seq.
           2
               For additional background information, see Appendix B.
Page 2 – James F. Martin


RESULTS OF REVIEW
Generally, MI-DDS had effective controls over the accounting and reporting of
administrative costs. The costs MI-DDS claimed on Forms SSA-4513 for FYs 2006 and
2007—totaling $142,796,032—were allowable and funds were properly drawn.
However, we found the general security control environment could be improved.
Specifically, MI-DDS’ security plan did not cover all the required parts outlined in SSA
policy. In addition, MI-DDS did not maintain complete inventory records of computer
equipment. Moreover, one retired contractor’s computer access was not properly
terminated. Finally, SSA did not rescind excess funding authorization balances from
FYs 1999 and 2001 of $16,588 and $6,985, respectively.

GENERAL SECURITY CONTROLS

We had findings related to the (1) security plan; (2) computer inventory records and
encryption; and (3) contractor systems access.

Security Plan Did Not Cover Required Eight Parts

MI-DDS Business Continuity Plans, in combination with emergency procedures for each
of the four DDS offices, did not cover all eight required parts at the time of our review.
According to SSA's Program Operations Manual System (POMS), each DDS must
establish and maintain a DDS security plan. 3 In the event of a disruption to any SSA
system, a Business Continuity Plan can be activated and conducted in tandem with the
security plan to ensure the recovery of the affected functions. However, the Business
Continuity Plan, in combination with each DDS' emergency procedures, did not cover all
eight required parts of a security plan, as outlined in SSA policy. 4 Since SSA’s policy
for an eight-part security plan was not followed, essential information was missing. 5 For
instance, the plan was missing descriptions of

      1. security measures in place during non-business hours,
      2. systems review and recertification, and
      3. security violations and resolution.

MI-DDS stated it was unaware of SSA’s security plan requirements, though we located
a November 2008 memorandum from SSA reminding all DDS Administrators of the
eight parts of a security plan. 6 In response to our inquiry, the MI-DDS contacted SSA

3
    SSA, POMS, DI 39567.160.A—DDS Security Plan Overview.
4
    SSA, POMS, DI 39567.160.B—DDS Security Plan Overview.
5
    We did not find this information in the other sections of the plan.
6
 SSA, Annual Security Reminders – INFORMATION, DDS Administrators’ Letter DDSAL 779 SEN,
November 5, 2008.
Page 3 – James F. Martin


regional office staff about updating the security plan. We recommend SSA work with
MI-DDS to ensure it timely updates and submits a security plan that meets SSA
requirements.

Inventory Records Did Not List Laptops

MI-DDS did not maintain complete inventory records of computer equipment because it
excluded SSA-purchased laptop computer equipment from the MI-DDS inventory lists.
During our visit, we identified four laptops that were not part of the inventory. SSA
policy states an appropriate inventory and control mechanism is required to account for
all property used for disability program purposes. 7 SSA policy also makes each State
responsible for maintaining an inventory of all equipment acquired—whether purchased
through SSA or the State. 8 Additionally, SSA policy requires that all sensitive
equipment, including laptop computers,9 be inventoried. 10 Finally, SSA has additional
instructions related to laptop computer equipment, including a requirement that these
laptops be encrypted using SSA-approved methods.11 Of the four laptops, staff stated
that only one was encrypted. DDS management noted that although the remaining
three laptops did not contain encryption software, the laptops were no longer being
used and were locked in a cabinet.

According to MI-DDS staff, the DDS did not record SSA-purchased computer equipment
in the official State inventory system because, according to State policy, equipment with
a purchase value of less than $5,000 did not need to be inventoried. As noted earlier,
SSA policy requires an inventory of such equipment and does not specify a purchase
value. 12 Not maintaining adequate inventory records hinders detection of stolen or
misplaced equipment. We have identified this issue in another report, and SSA agreed



7
    SSA, POMS, DI 39563.200—Public Law 96-265.
8
  SSA, POMS, DI 39530.020.A—DDS Responsibilities for Equipment. Section B states that the
equipment inventory must include for each item the following information: (1) description; (2) source of
funds used in purchase (for example, State or Federal); (3) unit cost (applicable for State purchases
only); (4) inventory or serial number; (5) date purchased; and (6) physical location, including building
address and room or floor location.
9
 SSA, Administrative Instructions Manual System (AIMS) Guide, Materiel Resources Manual (MRM)
04.01.03—SSA Property Management Program, Including Duties and Responsibilities of SSA
Employees.
10
  SSA, AIMS Guide, MRM 04.04.04—Physical Inventory of Personal Property, and 20 C.F.R.
§§ 404.1628 and 416.1028.
11
     SSA, POMS, DI 39567.145.B—DDS Encryption Policy and Procedures.
12
   While SSA also uses a $5,000 threshold for inventorying “equipment,” the policy specifically excludes
computer equipment, stating, “Electronic data processing (EDP) equipment is to be considered separately
from other equipment.” SSA, POMS, DI 39530.001.A.4—DDS Equipment--General.
Page 4 – James F. Martin


that the DDS should inventory laptops.13 We recommend that SSA instruct MI-DDS to
ensure all SSA-purchased computer equipment is tracked in an inventory system that
complies with SSA’s policies. In addition, since SSA regional office staffs were unable
to provide a master inventory list identifying all SSA-purchased computer equipment, we
also recommend that the SSA Regional Office staff verify the completeness of MI-DDS’
updated inventory list.

Terminated Contractor Still Had Active Directory Account

According to SSA's POMS, DDS management must ensure inactive computer accounts
are disabled after 30 days of inactivity or immediately upon a user’s separation from
duty. 14 However, in our review of departing staff and contractors, we found that while a
former medical contractor’s access to the DDS system was disabled after he retired in
September 2008, MI-DDS did not disable his Active Directory account. 15 Individuals
with an Active Directory account can still sign on to SSA’s system. As a result of our
inquiry, MI-DDS disabled his remaining access. Of the 116 cases we reviewed, 16 this
was the only incident we identified. Moreover, we believe the risk to SSA systems was
minimal since the contractor did not have physical access to SSA computer systems
either in-person or remotely, which would be necessary to use his Active Directory
account.

CASH MANAGEMENT

As of May 2009, excess funding authorization existed in the FYs 1999 and 2001
Automated Standard Application for Payments (ASAP) accounts in the amounts of
$16,588 and $6,985, respectively. 17 SSA establishes the DDS funding authority for
each account in the ASAP system. Funds drawn through the ASAP system are




13
  SSA OIG, Administrative Costs Claimed by the Nebraska Disability Determination Service
(A-07-07-17170), June 2008. In this report, we recommended SSA instruct the DDS to immediately
establish and maintain proper equipment inventory in compliance with Agency and State policies. SSA
agreed with the recommendation.
14
     SSA, POMS, DI 39567.090—Disabling DDS Systems Profiles.
15
  Active Directory stores information about users, computers, printers, and network resources and makes
the resources accessible to users and applications. Active Directory makes it easier to administer the
network and apply permissions to specific groups and users.
16
     We reviewed 116 accounts related to departing staff and contractors over the past 5 years.
17
  The excess funding authority likely occurred in the ASAP system when the DDS deobligated the
unliquidated obligations, but SSA did not reduce the excess funding authority in the ASAP system that
resulted from the deobligation.
Page 5 – James F. Martin


restricted to program use, and any unused funds are to be returned to the Department
of the Treasury within 5 years of availability. 18 SSA immediately rescinded the cash
balances after our inquiry.

CONCLUSION AND RECOMMENDATIONS
While MI-DDS’ internal controls over the accounting and reporting of administrative
costs were effective, the general physical security controls can be improved. We
recommend that SSA:

1. Work with MI-DDS to ensure it timely updates and submits a security plan that
   meets SSA requirements.
2. Instruct MI-DDS to ensure all SSA-purchased laptop computer equipment is
   encrypted with software that complies with SSA’s policies.
3. Instruct MI-DDS to ensure all SSA-purchased computer equipment is tracked in an
   inventory system that complies with SSA’s policies.
4. Once MI-DDS has provided an updated inventory list of all SSA-purchased computer
   equipment, verify the completeness of the updated inventory list.

AGENCY COMMENTS
SSA and the Michigan Department of Human Services agreed with the findings and
recommendations (see Appendices D and E for these comments).




                                                        Patrick P. O’Carroll, Jr.




18
  The Social Security Act § 221(f), 42 United States Code (U.S.C.) § 421(f); see also, 31 U.S.C. §§ 1502
and 1552. We did not find any other accounts with excess funding authorizations beyond this 5-year
period.
                                   Appendices
APPENDIX A – Acronyms

APPENDIX B – Background, Scope, and Methodology

APPENDIX C – Schedule of Total Costs Reported on Forms SSA-4513—State Agency
             Reports of Obligations for SSA Disability Programs

APPENDIX D – SSA Comments

APPENDIX E – Michigan Department of Human Services Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                Appendix A

Acronyms
Act             Social Security Act
AIMS            Administrative Instructions Manual System
ASAP            Automated Standard Application for Payments
C.F.R.          Code of Federal Regulations
DDS             Disability Determination Services
DI              Disability Insurance
Form SSA-4513   State Agency Report of Obligations for SSA Disability Programs
FY              Fiscal Year
MI-DDS          Michigan Disability Determination Services
MRM             Materiel Resources Manual
OIG             Office of the Inspector General
OMB             Office of Management and Budget
POMS            Program Operations Manual System
Pub. L. No.     Public Law Number
SSA             Social Security Administration
SSI             Supplemental Security Income
U.S.C.          United States Code
                                                                        Appendix B

Background, Scope, and Methodology
BACKGROUND
The Disability Insurance (DI) program, established under Title II of the Social Security
Act (Act), provides benefits to wage earners and their families in the event the wage
earner becomes disabled. The Supplemental Security Income (SSI) program,
established under Title XVI of the Act, provides benefits to financially needy individuals
who are aged, blind, or disabled.

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the DI and SSI programs. Disability
determinations under both the DI and SSI programs are performed by disability
determination services (DDS) in each State, Puerto Rico, and the District of Columbia in
accordance with Federal regulations.1 In carrying out its obligation, each DDS is
responsible for determining claimants’ disabilities and ensuring adequate evidence is
available to support its determinations. To assist in making proper disability
determinations, each DDS is authorized to purchase medical examinations, X-rays, and
laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s Automated Standard Application for Payments system to pay for program
expenditures. Funds drawn down must comply with Federal regulations 2 and
intergovernmental agreements entered into by the Department of the Treasury and
States under the Cash Management Improvement Act of 1990. 3 An advance or
reimbursement for costs under the program must comply with Office of Management
and Budget (OMB) Circular A-87, Cost Principles for State, Local, and Indian Tribal
Governments. At the end of each quarter of the Fiscal Year (FY), each DDS submits a
State Agency Report of Obligations for SSA Disability Programs (Form SSA-4513) to
account for program disbursements and unliquidated obligations.




1
    20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
2
    31 C.F.R. Part 205.
3
    Pub. L. No. 101-453.


                                                   B-1
SCOPE
To accomplish our objectives, we reviewed the administrative costs the Michigan
Disability Determination Services (MI-DDS) reported on its Forms SSA-4513 for
FYs 2006 and 2007. For the periods reviewed, we obtained evidence to evaluate
recorded financial transactions and determine whether they were allowable under
OMB Circular A-87, and appropriate, as defined by SSA’s Program Operations Manual
System (POMS).

We also:
      Reviewed applicable Federal laws, regulations and pertinent parts of POMS
       and other instructions pertaining to administrative costs incurred by MI-DDS and
       the draw down of SSA funds.
      Reviewed the State of Michigan Single Audit report issued in 2006.
      Interviewed staff at MI-DDS and the Chicago Regional Office.
      Evaluated and tested internal controls regarding accounting and financial
       reporting and cash management activities.
      Verified the reconciliation of official State accounting records to the administrative
       costs reported by MI-DDS on Forms SSA-4513 for FYs 2006 and 2007.
      Examined the administrative expenditures (Personnel, Medical, and All Other
       Non-Personnel costs) incurred and claimed by MI-DDS for FYs 2006 and 2007
       on Forms SSA-4513.
      Examined the Indirect costs claimed by MI-DDS for FYs 2006 and 2007 and the
       corresponding Indirect Cost Rate Agreements.
      Compared the amount of SSA funds drawn to support program operations to the
       allowable expenditures reported on Forms SSA-4513.
      Conducted limited general control testing, which encompassed reviewing the
       physical access security within the DDS.

The electronic data used in our audit were sufficiently reliable to achieve our audit
objectives. We assessed the reliability of the electronic data by reconciling them with
the costs claimed on the Forms SSA-4513. We also conducted detailed audit testing on
selected data elements in the electronic data files.

We performed our audit at the MI-DDS in Detroit, Michigan; Kalamazoo, Michigan;
Lansing, Michigan; and the Office of Audit in Chicago, Illinois, from March through
June 2009. We conducted our audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient and appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.


                                            B-2
METHODOLOGY
SAMPLING METHODOLOGY

Our sampling methodology encompassed the four general areas of costs as reported on
Forms SSA-4513: (1) Personnel, (2) Medical, (3) Indirect, and (4) All Other
Non-Personnel costs. We obtained computerized data from MI-DDS for FYs 2006 and
2007 for use in statistical sampling. Also, we reviewed general security controls the
DDS had in place.

Personnel Costs

We sampled 50 employee salary items from 1 randomly selected pay period in
FY 2007. We tested regular and overtime payroll and hours for each individual
selected. We verified that approved time records were maintained and supported the
hours worked. We tested payroll records to ensure the MI-DDS correctly paid
employees and adequately documented these payments.

We also sampled 50 medical consultant costs from 1 randomly selected pay period in
FY 2007. We determined whether sampled costs were reimbursed properly and
ensured the selected medical consultants were licensed.

Medical Costs

We sampled a total of 100 medical evidence of records and consultative examination
records (50 items from each FY) using a proportional random sample. We determined
whether sampled costs were properly reimbursed.

Indirect Costs

We reviewed the indirect cost base and computations used to determine those costs for
reimbursement purposes. Our objective was to ensure SSA reimbursed MI-DDS in
compliance with the approved Indirect Cost Rate Agreement. We analyzed the
approved rate used, ensuring the indirect cost rate changed when the Indirect Cost
Rate Agreement was modified. We reviewed the documentation and traced the base
amounts to Forms SSA-4513 for the indirect cost computation components. We
determined whether the approved rate used was a provisional, predetermined, fixed or
final rate.




                                         B-3
All Other Non-Personnel Costs

We stratified All Other Non-Personnel costs into nine categories: (1) Occupancy,
(2) Contracted Costs, (3) New Electronic Data Processing, (4) Equipment Rental,
(5) Communications, (6) Applicant Travel, (7) DDS Travel, (8) Supplies, and
(9) Miscellaneous. We selected a stratified random sample of 51 items from FY 2006
and 50 items from FY 2007 based on the percentage of costs in each category
(excluding the rent portion of Detroit DDS Occupancy) to total costs. We also
performed a 100-percent review of the rent portion of Occupancy expenditures for the
Detroit DDS office. 4

General Security Controls

We conducted limited general security control testing. Specifically, we reviewed the
following eight areas relating to general security controls: (1) Perimeter Security,
(2) Intrusion Detection, (3) Key Management, (4) Internal Office Security, (5) Equipment
Rooms, (6) Security Plan, (7) Continuity of Operations, and (8) Other Security Issues.
We determined whether the general security controls the DDS had in place were
satisfactory.

Personally Identifiable Information

We reviewed a random sample of various mailed documents MI-DDS produced to
determine if personally identifiable information was referenced only on those deemed
necessary.




4
 We reviewed rent expenditures for the Detroit DDS office to follow up on an audit finding identified in our
May 2004 report, Administrative Costs Claimed by the Michigan Disability Determination Services
(A-05-03-13036).


                                                    B-4
                                                                              Appendix C

Schedule of Total Costs Reported on
Forms SSA-4513—State Agency Reports of
Obligations for SSA Disability Programs

                   Michigan Disability Determination Services
                     FISCAL YEARS (FY) 2006 and 2007 COMBINED

                                  FY 2006                     FY 2007             TOTAL
  REPORTING ITEMS           DISBURSEMENTS              DISBURSEMENTS         DISBURSEMENTS
 Personnel                    $47,970,856                $45,672,482           $93,643,338
 Medical                       15,976,014                 14,676,886            30,652,900
 Indirect                        3,554,689                  3,175,993            6,730,682
 All Other                       6,216,690                  5,552,422           11,769,112
 TOTAL                        $73,718,249                $69,077,783          $142,796,032
Note: We did not identify any unliquidated obligations during this period.
               Appendix D

SSA Comments
                                  Appendix E

Michigan Department of Human Services
Comments
E-1
E-2
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Chicago Audit Division

   Annette Dunn, Audit Manager, Chicago Audit Division

Acknowledgments

In addition to those named above:

   Elizabeth Ochoa, Auditor-in-Charge

   Gregory Geisert, Auditor

   Nichole Purnell, Auditor

   Wai Ho Yung, Auditor

   Brennan Kraje, Jr., Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-05-08-18017.
                                 DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform


Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
